            Office Of Inspector General




                                          January 30, 2004

                                          SUZANNE F. MEDVIDOVICH
                                          SENIOR VICE PRESIDENT, HUMAN RESOURCES

                                          SUBJECT: Management Advisory - Postal Service’s Death
                                                   Benefit Payments to Decedent’s Survivor(s) –
                                                   Phase II (Report Number HM-MA-04-001)

                                          This management advisory presents the results of our
                                          review of the Postal Service’s Death Benefit Payments to
                                          Decedent’s Survivor(s) within the Pacific, Western, Great
                                          Lakes, Eastern, Northeast, and New York Metro Areas,
                                          (Project Number 03YG045HK001). The review was
                                          requested by the Postal Service and is the second of
                                          two management advisory reports. The objectives of our
                                          review were to determine whether the Postal Service is
                                          effectively managing death benefit claims by identifying
                                          changes to and terminations of survivors’ benefit
                                          entitlements, and notifying the Department of Labor, Office
                                          of Workers’ Compensation Programs. In addition, we
                                          evaluated the program to identify potential areas for cost
                                          reductions.

 Results in Brief                         According to the Postal Service’s Handbook EL-505, Injury
                                          Compensation, the supervisor of the Postal Service Injury
                                          Compensation Control Office (control office) is required to
                                          periodically review death benefit claims to ensure the legal
                                          period of entitlement has not been exceeded. Our review
                                          disclosed the control office staff did not effectively monitor
                                          or review death benefit claim files. Specifically, death claim
                                          files did not always contain current documentation such as
                                          Forms CA-121 and EN-1615.2 We found the Office of
                                          Workers’ Compensation Programs paid compensation


1
  Office of Workers’ Compensation Programs Form CA-12 is used by survivors to report their current marital status,
dependent status, employment, and receipt of other benefits each year.
2
  Office of Workers’ Compensation Programs Form EN-1615 is used by children between the ages of 18 and 23 to
report whether they are pursuing a course of full-time study.

    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Postal Service’s Death Benefit Payments to                                                         HM-MA-04-001
 Decedent’s Survivor(s) – Phase II



                                  payments to the survivor of a claimant who was never
                                  employed by the Postal Service. In addition, the Office of
                                  Workers’ Compensation Programs paid educational benefits
                                  to dependent survivors and compensation benefits to
                                  remarried and deceased survivors who were not entitled.

                                  Further, survivors had received compensation benefits
                                  before exhausting a third party award. These conditions
                                  occurred because the Office of Workers’ Compensation
                                  Programs restricted the control office staff by limiting the
                                  number of visits they could conduct and the number of case
                                  files they could review. In addition, the control office staff
                                  perceived the monitoring and reviewing of death claims as
                                  the sole responsibility of the Office of Workers’
                                  Compensation Programs. As a result, the Postal Service
                                  paid an estimated $3.4 million3 in questionable
                                  compensation to survivors for benefits they might not have
                                  been entitled to receive.

                                  To effectively manage the death benefit claims, we strongly
                                  encourage Postal Service control office staffs to work jointly
                                  with the Office of Workers’ Compensation Programs to
                                  determine how and when to coordinate annual reviews of all
                                  death claims to verify survivors’ entitlement to continued
                                  benefits.

    Background                    The Federal Employees' Compensation Act, Title 5, United
                                  States Code, Section 8102, provides for the payment of
                                  workers' compensation benefits to civilian employees for
                                  disability due to personal injury or disease sustained while
                                  in the performance of duty. Eligible employees are also
                                  entitled to receive medical and related services. In addition,
                                  the Federal Employees' Compensation Act provides for the
                                  payment of benefits to dependents if a work-related injury or
                                  disease causes an employee’s death. The Department of
                                  Labor, Office of Workers’ Compensation Programs,
                                  administers the Federal Employees' Compensation Act.

                                  Title 20, Code of Federal Regulations, Parts 10 and
                                  25, states the survivors of a federal employee whose death

3
  Represents death benefit payments received by survivors who did not submit a current Form CA 12 in fiscal year
(FY) 2001 and prior, compensation paid to survivor of non-postal service employee, educational benefits paid to
dependents, overpayments paid remarried and deceased survivors, and compensation paid to survivors before the
exhaustion of a third-party award.



                                                        2
Postal Service’s Death Benefit Payments to                                       HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                                is work-related are entitled to benefits in the form of
                                compensation payments, funeral expenses, transportation
                                expenses for the remains, and payment for termination of
                                the decedent’s status as a federal employee. The Office of
                                Workers’ Compensation Programs classifies a survivor as a
                                widow or widower; an unmarried child under 18, or over
                                age 18 who is incapable of self-support due to mental or
                                physical disability; a child between ages 18 and 23 who has
                                not completed 4 years of post-high school education and is
                                regularly pursuing a full-time course of study; or a parent,
                                brother, sister, grandparent, or grandchild who was wholly
                                or partially dependent on the deceased.

                                A surviving spouse with no eligible children is entitled to
                                compensation at the rate of 50 percent of the deceased
                                employee’s salary until death or remarriage if he or she is
                                under 55. If a spouse under 55 remarries, the Office of
                                Workers’ Compensation Programs makes a lump-sum
                                payment equal to 24 times the monthly compensation at the
                                time of remarriage. However, remarriage after 55 does not
                                affect the spouse’s entitlement to benefits.

                                A surviving spouse who has eligible children is entitled to
                                compensation at the rate of 45 percent of the deceased
                                employee’s salary. An additional 15 percent is payable for
                                each child, up to a maximum of 75 percent of the salary on
                                a share-and-share-alike basis. If the deceased employee
                                leaves no spouse, the first child is entitled to 40 percent,
                                and each additional child is entitled to 15 percent of the
                                deceased employee’s salary up to a maximum of
                                75 percent, payable on a share-and-share-alike basis.
                                Other surviving dependents may be entitled to benefits at
                                various percentages specified by the Federal Employees'
                                Compensation Act, according to the degree of dependence.

 Objectives, Scope,             The objectives of our review were to determine whether the
 and Methodology                Postal Service is effectively managing death benefit claims
                                by identifying changes to and terminations of survivors’
                                benefit entitlements and notifying the Office of Workers’
                                Compensation Programs. We also evaluated the program
                                to determine whether there were potential areas for cost
                                reductions.

                                To achieve these objectives, we reviewed Postal Service
                                and Office of Workers’ Compensation Programs policies



                                                3
Postal Service’s Death Benefit Payments to                                                               HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                                     and procedures for case management of death claims. To
                                     identify the total number of death claims, we reviewed data
                                     from the Postal Service Injury Compensation System and
                                     obtained death claim reports from the Postal Service area
                                     offices and the Office of Workers’ Compensation Programs
                                     district offices. This resulted in a listing of 570 death claim
                                     cases, for the Pacific, Western, Great Lakes, Eastern,
                                     Northeast, and New York Metro Areas, including cases
                                     transferred to the Capitol Metro, Southeast, and Southwest4
                                     Areas. We reviewed all 570 death claim files at the Office of
                                     Workers’ Compensation Programs district offices.5 We also
                                     interviewed officials of the Postal Service and the Office of
                                     Workers’ Compensation Programs to obtain additional
                                     information related to the case management of death claim
                                     files.

                                     We reviewed all 570 death claim cases for completeness to
                                     determine whether the files contained documentation, such
                                     as Forms CA-5,6 CA-12 and EN-1615; death, marriage, and
                                     birth certificates; and educational certifications. For this
                                     review, we considered death claim files containing a
                                     Form CA-12 dated for 2002 or 2003 as sufficiently
                                     documented. Since the Office of Workers’ Compensation
                                     Programs mails Form CA-12 each October, we gave the
                                     survivors credit for the year the form was dated and for the
                                     following year, because some survivors were prompt in
                                     returning the form, while others were several months
                                     delinquent.7

                                     The financial and payment information in this report was
                                     extracted from the Postal Service production application
                                     system. The results of this report were reconciled with
                                     related Postal Service production reports, if available and
                                     applicable. We did not test the general and application

4
  The Capitol Metro, Southeast, and Southwest Areas were initially part of the Phase I Management Advisory Review.
A return visit was required to these areas because the Office of Workers’ Compensation Programs has a policy of
transferring case files to the physical location in which the claimant or survivor resides.
5
  We visited the following Office of Workers’ Compensation Programs district offices: District 1 - Boston,
Massachusetts; District 2 - New York, New York; District 3 - Philadelphia, Pennsylvania; District 6 - Jacksonville,
Florida; District 9 - Cleveland, Ohio; District 10 - Chicago, Illinois; District 11 - Kansas City, Missouri; District 12 -
Denver, Colorado; District 13 - San Francisco, California; District 14 - Seattle, Washington; District 16 - Dallas, Texas;
and District 25 - Washington, DC.
6
  Office of Workers’ Compensation Programs Form CA-5 is used by widows, widowers, and/or children to claim
compensation when an employee’s injury results in death.
7
  For example, if a case file contained a Form CA-12 dated 1999, the case file was considered current for the
years 1999 and 2000. Any subsequent year(s) with no Form CA-12 on file were considered not documented, and the
funds paid for those non-documented year(s) were questionable.



                                                            4
Postal Service’s Death Benefit Payments to                                         HM-MA-04-001
 Decedent’s Survivor(s) – Phase II



                                controls to determine the integrity and accuracy of the
                                computer-generated data supporting the audit findings.

                                This review was conducted from March 2003 through
                                January 2004 in accordance with generally accepted
                                government auditing standards and included such tests of
                                internal controls as were considered necessary under the
                                circumstances. We did not attempt to assess the reliability
                                of the data from the systems as part of our audit objectives.
                                We discussed our conclusions and observations with
                                appropriate management officials and included their
                                comments, where appropriate.

 Prior Audit Coverage           We identified one management advisory and two audit
                                reports issued by the Postal Service Office of Inspector
                                General (OIG) and the Department of Labor OIG that
                                addressed issues relating to death claims. See the
                                appendix for further details.

 Monitoring and                 According to Postal Service Handbook EL-505, Injury
 Reviewing Death                Compensation, the supervisor of the Postal Service Injury
 Benefit Claim Files            Compensation Control Office (control office) is required to
                                periodically review death benefit claims to ensure the legal
                                period of entitlement has not been exceeded. Our review
                                disclosed the control office staff did not effectively monitor
                                or review death benefit claim files. Specifically, death claim
                                files did not always contain current documentation such as
                                Forms CA-12 and EN-1615.

                                The Office of Workers’ Compensation Programs paid
                                compensation payments to the survivor of a claimant who
                                was never employed by the Postal Service. In addition, the
                                Office of Workers’ Compensation Programs paid
                                educational benefits to dependent survivors and
                                compensation benefits to remarried and deceased survivors
                                who were not entitled. Further, survivors had received
                                compensation benefits before exhausting a third party
                                award.

                                These conditions occurred because the Office of Workers’
                                Compensation Programs restricted the control office staff by
                                limiting the number of visits they could conduct and the
                                number of case files they could review. In addition, the
                                control office staff perceived the monitoring and reviewing of



                                                 5
Postal Service’s Death Benefit Payments to                                                          HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                                   death claims as the sole responsibility of the Office of
                                   Workers’ Compensation Programs. As a result, the Postal
                                   Service paid an estimated $3.4 million in questionable
                                   compensation to survivors for benefits they might not have
                                   been entitled to receive.

    Insufficient                   Death benefit claim files did not always contain current
    Documentation in               documentation such as Forms CA-12 and EN-1615.
    Death Benefit Claim            Specifically, we reviewed a total of 570 death claim files
    Files                          assigned to the Pacific, Western, Great Lakes, Eastern,
                                   Northeast, and New York Metro Areas. Of the 570 files:

                                       •   424 files had a current Form CA-12.
                                       •   131 files did not have a current Form CA-12.
                                       •   3 did not include a Form CA-12.
                                       •   12 files were new or did not require a Form CA-12.

                                   In accordance with Title 20, Code of Federal Regulations,
                                   Section 10.414, the Office of Workers Compensation
                                   Programs requires the survivor to return Form CA-12 within
                                   30 days of the request. If the survivor does not return
                                   Form CA-12 within 30 days of the request, the Office of
                                   Workers’ Compensation Programs shall suspend
                                   compensation until it receives the requested form or an
                                   equivalent written statement. Although 134 death claim files
                                   either lacked or did not have a current Form CA-12, the
                                   Office of Workers’ Compensation Programs did not suspend
                                   benefits, as required by law. As a result, the Office of
                                   Workers’ Compensation Programs paid $3.2 million8 in
                                   compensation for death claims when it had not received a
                                   current Form CA-12.

    Compensation                   The Office of Workers’ Compensation Programs made
    Payments Paid to               payments to the survivor of an employee who was working
    Survivor of Non-Postal         for the National Institutes of Health, Department of Health
    Service Employee               and Human Services rather than the Postal Service, at the
                                   time of his injury-related death. Although the survivor had
                                   never received benefits from the Postal Service, between
                                   February 2002 and March 2003, the survivor received
                                   compensation payments totaling approximately $34,000 that
                                   was billed to the Postal Service’s chargeback report. We
                                   reviewed personnel records at the Federal Records Center
8
  Represents death benefit payments received by survivors who did not submit a current Form CA 12 in fiscal year
(FY) 2001 and prior. We considered death claim files containing a Form CA-12 dated for FYs 2002 or 2003 as
sufficiently documented since the Office of Workers’ Compensation Programs mails Form CA-12 each October.



                                                         6
Postal Service’s Death Benefit Payments to                                                                HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                                     in St. Louis, Missouri, to confirm that the claimant never
                                     worked for the Postal Service and that the Postal Service
                                     should not have paid survivor benefits. We believe that if
                                     the control office staff had monitored and periodically
                                     reviewed the quarterly chargeback reports, they would have
                                     identified this error.

                                     The Office of Workers’ Compensation Programs provides
                                     each agency with a quarterly chargeback report that lists the
                                     charges for medical and compensation costs for each
                                     injured employee.9 Each agency uses this report to identify
                                     and correct errors before the Office of Workers’
                                     Compensation Programs bills the agency. The control
                                     office staff should review the chargeback report at the end
                                     of every accounting period to ensure the Postal Service is
                                     billed only for its employees’ compensation and medical
                                     costs. The control office staff should also ensure the Postal
                                     Service has received the appropriate credits on the
                                     chargeback report. Because the Postal Service failed to
                                     review the quarterly chargeback reports, the Postal Service
                                     could possibly only receive a credit adjustment for
                                     approximately $22,000 of the $34,000, which covers
                                     the compensation paid during July 2002 through
                                     February 2003.10

    Decedent’s                       The Office of Workers’ Compensation Programs continued
    Dependents Not                   to pay education benefits to a decedent’s dependent
    Entitled to Educational          survivor who was not entitled to benefits. The dependent
    Benefits                         was not a full-time student and had reached age 23 in
                                     March 2001, in addition to having married in May 2002.11
                                     This error resulted in an overpayment of approximately
                                     $69,000. According to the last Form EN-1615 submitted
                                     for verification, payments should have ended in
                                     December 1996, which was the dependent’s scheduled



9
  The Federal Employees’ Compensation Act program is financed by the Employees’ Compensation Fund, which
consists of monies appropriated by Congress or contributed by certain agencies from operation revenues. The
chargeback system is the mechanism by which the costs of compensation for work-related injuries and deaths are
assigned to employing agencies annually at the end of the fiscal accounting period, which runs from July to June.
10
   The Office of Workers’ Compensation Programs Publication CA-810, January 1999, Section 9-5E, states that if
another agency should have been charged, the Office of Workers’ Compensation Programs will advise that agency
and a debit will appear on the other agency’s next bill. Credits or debits will be made only for charges appearing on
the agency’s most recent bill. Adjustments will be made only if they will affect a total for a particular billing entity.
11
   Title 20, Code of Federal Regulations, Section 10.405(a), considers a dependent to include a wife or husband; an
unmarried child under 18 who is incapable of self-support; or a student, until he or she reaches 23 years of age or
completes 4 years of school beyond the high school level.



                                                            7
Postal Service’s Death Benefit Payments to                                       HM-MA-04-001
 Decedent’s Survivor(s) – Phase II



                                date of graduation from college. As of February 2003, the
                                survivor was still receiving educational benefits from the
                                Office of Workers’ Compensation Programs.

                                During our review, we informed the Office of Workers’
                                Compensation Programs of this error, and in June 2003 the
                                decedent’s file was deleted from the payment system. The
                                Office of Workers’ Compensation Programs also agreed to
                                trace the previously issued checks to determine if they were
                                cashed or returned to the Department of the Treasury. If
                                the survivor cashed previously issued checks, then the
                                Office of Workers’ Compensation Programs will take the
                                appropriate action to recover benefits resulting from the
                                overpayment.

                                In addition, another decedent’s dependent who was enrolled
                                in college part-time from May 2001 through January 2002,
                                received over $5,200 in compensation benefits from the
                                Office of Workers’ Compensation Programs. A preliminary
                                review by the Office of Workers’ Compensation Programs
                                determined the dependent was overpaid, based on school
                                records, and the case file contained a signed statement
                                from the parent indicating the decedent’s dependent was a
                                part-time student.

                                Since the Form CA-12 was not returned and information
                                from the parent and school indicated the dependent was a
                                part-time student, the Office of Workers’ Compensation
                                Programs initiated the recovery procedure. However, the
                                claims examiner assigned to the case did not complete the
                                recovery procedure but instead prepared a memorandum
                                for the case file stating, “any action taken right now to
                                terminate benefits based on a missing Form CA-12 would
                                result in needless paperwork and would actually be
                                somewhat punitive in nature.” The claims examiner made
                                this decision because the Office of Workers’ Compensation
                                Programs has the authority to stop or start compensation
                                benefits. As a result, the dependent continued receiving
                                benefits and no further overpayment recovery action was
                                taken on this case file.

                                Title 20, Code of Federal Regulations, Section 10.433(a),
                                states the Office of Workers Compensation Programs may
                                consider waiving an overpayment only if the individual to



                                                8
Postal Service’s Death Benefit Payments to                                                        HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                                  whom it was made was not at fault in accepting or creating
                                  the overpayment. Each recipient of compensation benefits
                                  is responsible for taking all reasonable measures to ensure
                                  that payments he or she receives from the Office of
                                  Workers’ Compensation Programs are proper. The
                                  recipient must show good faith and exercise a high degree
                                  of care in reporting events that may affect the entitlement to
                                  or amount of benefits.

                                  Furthermore, federal law and regulations state the Office of
                                  Workers’ Compensation Programs may not recover the
                                  overpayment if the recovery would defeat the purpose of the
                                  Federal Employees’ Compensation Act or would be against
                                  equity and good conscience.12 By federal law and
                                  regulations, the Office of Workers’ Compensation Programs
                                  could have recovered the overpayment, since the
                                  circumstances surrounding the dependent may not have
                                  defeated the purpose of the Federal Employees’
                                  Compensation Act.

 Overpayments to a                The Office of Workers’ Compensation Programs paid death
 Remarried Survivor               benefits to a survivor who remarried before the age of 55.
                                  The survivor had not returned a Form CA-12 since
                                  December 1998 and indicated on that Form CA-12 that he
                                  had remarried in May 1996. Title 20, Code of Federal
                                  Regulations, Section 10.410, requires benefits to be
                                  terminated if a survivor remarries before age 55. If a
                                  survivor remarries before 55, he or she is entitled to a lump
                                  sum equal to 24 times the monthly compensation payment.
                                  However, the Office of Workers’ Compensation Programs
                                  paid the remarried survivor over $60,000 in monthly
                                  payments from June 1996 through February 2003. The
                                  remarried survivor should have received a lump sum
                                  payment of approximately $17,000. As of June 2003, the
                                  remarried survivor was still receiving benefits. We estimate
                                  that the survivor was overpaid by approximately $43,000 as
                                  of February 2003.

 Overpayments to a                The Office of Workers’ Compensation Programs continued
 Deceased Survivor                providing benefits to a survivor who died in December 2000.
12
   Title 5, United States Code, Section 8129 and Title 20, Code of Federal Regulations, Section 10.437(a and b),
states, “Recovery of an overpayment is considered to be against equity and good conscience when any individual
who received an overpayment would experience severe financial hardship in attempting to repay the debt, and
“Recovery of an overpayment is also considered to be against equity and good conscience when an individual, in
reliance on such payments or on notice that such payments would be made, gives up a valuable right or changes his
or her position for the worse.”



                                                        9
Postal Service’s Death Benefit Payments to                                                            HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                                   The survivor was receiving compensation payments as of
                                   February 2003. The total amount of checks mailed to the
                                   survivor’s former address was approximately $11,000. We
                                   reviewed the Social Security Death Index13 and confirmed
                                   the survivor died in December 2000, which would terminate
                                   the Postal Service’s obligation to pay compensation
                                   benefits. In April 2003, a fiscal officer for the Office of
                                   Workers’ Compensation Programs placed a memorandum
                                   in the file indicating the Department of the Treasury had a
                                   cancelled check that was more than 1 year old. The Office
                                   of Workers’ Compensation Programs also confirmed the
                                   death case file contained several cancellation notices from
                                   the Department of the Treasury for checks dated as early as
                                   August 2001. After the OIG brought this matter to the
                                   attention of the Office of Workers’ Compensation Programs,
                                   the survivor was deleted from the payment system in
                                   June 2003. The Office of Workers’ Compensation
                                   Programs stated they would run a tracer to determine the
                                   final disposition of the previously issued checks.

 Compensation                       A claimant’s estate received over $1.2 million in
 Payments Paid Before               compensation from a third-party award agreement while still
 the Exhaustion of a                collecting compensation benefits from the Postal Service.
 Third Party Award                  Specifically, the Postal Service paid approximately $49,000
                                    in compensation and medical costs to a claimant before his
                                    death. In October 2001, after the claimant’s death, the
                                    survivors were awarded over $1.2 million to settle their
                                    third-party lawsuit. In November 2001, the survivors’
                                    attorney mailed a check of approximately $49,000 from the
                                    $1.2 million award, to the Office of Solicitor General, United
                                    States Department of Labor as a refund payment to the
                                    Postal Service to cover expenses previously paid by the
                                    Postal Service. However, during our review we found no
                                    evidence of the Postal Service ever receiving credit for the
                                    approximate $49,000.14

                                   Title 20, Code of Federal Regulations, Section 10.711,
                                   states in part, “after the refund owed to the United States is
                                   calculated, the Federal Employment Compensation Act
                                   beneficiary retains any surplus remaining, and this amount
                                   is credited, dollar for dollar, against future compensation for
13
   The Social Security Death Index is a public listing available on the Internet (www.rootsweb.com) that lists the
name, date of birth, date of death, last residence, and Social Security number of individuals who have died as
reported by a relative or funeral home.
14
   The Postal Service should have received a credit or offset to their account as reimbursement for the approximately
$49,000 they paid to the decedent’s survivors before the third-party award settlement.



                                                         10
Postal Service’s Death Benefit Payments to                                        HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                                the same injury. The Office of Workers’ Compensation
                                Programs will resume the payment of compensation only
                                after the Federal Employment Compensation Act
                                beneficiary has been awarded compensation which exceeds
                                the amount of the surplus.”

                                In addition, the survivors continued to receive their
                                compensation payments from December 2001 through
                                September 2002. These payments totaled approximately
                                $24,000 and were made although the third-party award was
                                settled and payment mailed to the Office of Solicitor
                                General, United States Department of Labor. As stated by
                                Title 20, Code of Federal Regulations, Section 10.711,
                                compensation should cease until exhaustion of third-party
                                award. Instead, the Office of Workers’ Compensation
                                Programs continued to make regular compensation
                                payments to the survivors. This occurred because the
                                Office of Workers’ Compensation Programs did not take
                                action to stop compensation payments while recovering the
                                third-party award nor did the Postal Service take action to
                                notify the Office of Workers’ Compensation Programs about
                                the error until March 2003.

                                Furthermore, after starting the recovery of the third-party
                                award payment in September 2002, the Office of Workers’
                                Compensation Programs continued to make compensation
                                payments of approximately $667 to the two surviving
                                children even though the children were party to the
                                third-party lawsuit and included in the settlement payout.
                                This situation occurred because the claimant’s case file did
                                not contain a copy of the final court’s decision indicating
                                which survivors were a party to the lawsuit or the amount
                                awarded to the survivors from winning the lawsuit. As cited
                                before, Title 20, Code of Federal Regulations,
                                Section 10.711 requires recovery of third-party awards
                                before compensation is paid or continued. Without
                                adequate information, the Office of Workers’ Compensation
                                Programs arbitrarily granted continued payments to the
                                children while making deductions from the spouse’s
                                compensation. This resulted in survivors receiving
                                compensation before recovery of their third-party award
                                payment, as required by federal regulations.




                                                11
Postal Service’s Death Benefit Payments to                                         HM-MA-04-001
 Decedent’s Survivor(s) – Phase II



 Restrictions and               The Office of Workers’ Compensation Programs restricted
 Perceived                      the control office staff by limiting the number of visits they
 Responsibility                 could conduct per month and the number of case files they
                                could review. This occurred because the Office of Workers’
                                Compensation Programs serves all federal agencies and
                                must allocate time to each federal agency for file review.
                                The Postal Service uses its allocated time and site visits to
                                focus on returning workers back to work, who are on the
                                periodic rolls, instead of reviewing death case files. In
                                addition, the control office staff perceived the monitoring
                                and reviewing of death claims as the sole responsibility of
                                the Office of Workers’ Compensation Programs, because
                                the Office of Workers’ Compensation Programs is the
                                adjudicating authority and makes the final determination of
                                whether a claim will be accepted or denied. Even though
                                the control office staff has taken a hands-off approach with
                                regard to management of death claims, the Postal Service’s
                                Handbook EL-505, Injury Compensation, states the
                                supervisor of the control office is required to periodically
                                review death benefit claims to ensure the legal period of
                                entitlement has not been exceeded.

 Status of Prior                In response to the first report, Postal Service’s Death
 Recommendation                 Benefit Payments to Decedent’s Survivor(s) (Report
                                Number HK-MA-03-002, dated March 31, 2003), we
                                recommended the Postal Service coordinate with the Office
                                of Workers’ Compensation Programs’ district offices to
                                review all death benefit claims annually to verify survivors’
                                entitlement to continued benefits. In response to this
                                recommendation, the Postal Service sent a memorandum to
                                the Office of Workers’ Compensation Programs in
                                May 2003. In the memorandum, the Postal Service stated
                                that during a meeting held on May 8, 2003, the Office of
                                Workers’ Compensation Programs agreed to review their
                                procedures and take steps to ensure that all procedural
                                steps are followed as well as ensure that only qualified
                                decedent survivors receive the entitled death benefits. We
                                considered this action sufficient to close this
                                recommendation.

                                Since similar issues exist in this report, we strongly
                                encourage the Postal Service control office staffs to work
                                jointly with the Office of Workers’ Compensation Programs
                                to determine how and when to coordinate annual reviews of



                                                12
Postal Service’s Death Benefit Payments to                                           HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                                all death benefit claims to verify survivors’ entitlement to
                                continued benefits.

                                We appreciate the cooperation and courtesies provided by
                                your staff during the review. If you have any questions or
                                need additional information please contact Erica R.
                                Blackman, director, Health Care Audit, at (703) 248-2100 or
                                me at (703) 248-2300.


                                /s/ Mary W. Demory

                                Mary W. Demory
                                Deputy Assistant Inspector General
                                 for Operations and Human Capital

                                Attachment

                                cc: Alfred Iniguez
                                    Sylvester Black
                                    JoAnn Feindt
                                    Alexander Lazaroff
                                    Jon M. Steele
                                    David L. Solomon
                                    William J. Brown
                                    George L. Lopez
                                    Jerry D. Lane
                                    Ronald E. Henderson
                                    James J. Rowan, Jr.
                                    Susan M. Duchek




                                                 13
Postal Service’s Death Benefit Payments to                                  HM-MA-04-001
 Decedent’s Survivor(s) – Phase II


                       APPENDIX. PRIOR AUDIT COVERAGE
Postal Service, Office of Inspector General

Postal Service OIG, Postal Service’s Death Benefit Payments to Decedent’s Survivor(s)
(Report Number HK-MA-03-002, dated March 31, 2003). This management advisory
disclosed the Postal Service’s Injury Compensation Control Office did not effectively
monitor or review death benefit claim files and that the Office of Workers’ Compensation
Programs death claim files did not always contain current documentation. As a result,
the Office of Workers’ Compensation Programs paid compensation to survivors on
behalf of the Postal Service that was questionable. We recommended the control office
staff coordinate with the Office of the Workers’ Compensation Programs district offices
and review all death benefit claims to verify survivors’ entitlement. Postal Service
management neither agreed nor disagreed with the recommendation nor provided an
opinion concerning the questionable costs. This recommendation was considered
unresolved, and the OIG plans to pursue it through the formal audit resolution process.
Management also neither agreed nor disagreed with another recommendation but the
actions taken or planned by management should correct the issues identified. Finally,
management was not responsive to the last recommendation but resolution will not be
pursued through the formal audit resolution process.

Postal Service OIG, Southwest Area’s Efforts in Obtaining Appropriate Chargeback
Credits for Identified Wage Compensation Overpayments and Refundable
Disbursements (Report Number LH-AR-02-003, dated May 8, 2002). This audit
disclosed that Postal Service policies ensured that appropriate chargeback credit
adjustments were received for wage compensation overpayments and third-party
liability refundable disbursements. However, five of the six Southwest Area
performance clusters reviewed did not implement automated or manual follow-up
procedures to comply with the policies.

Department of Labor, Office of Inspector General

Department of Labor OIG, Federal Employees’ Compensation Act Excess Payment
Recovery Procedures Need Improvement (Report Number 03-98-003-04-431, dated
March 31, 1998). This report found that in most cases, excess payments were made
because the Office of Workers’ Compensation Programs offices had not been notified in
a timely manner of claimants’ deaths, or upon notification, they failed to promptly
terminate compensation benefit payments. In addition, the Office of Workers’
Compensation Programs district offices did not follow existing procedures for recovering
excess payments, and did not track or account for excess payments to ensure that all
were recovered. The Employment Standards Administration concurred with the
recommendations.




                                             14
